<html>
<title> - THE DISTRICT OF COLUMBIA TUITION ACCESS GRANT PROGRAM</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
         THE DISTRICT OF COLUMBIA TUITION ACCESS GRANT PROGRAM 
=======================================================================
                                HEARING

                               before the

                   SUBCOMMITTEE ON FEDERAL WORKFORCE,
                    POSTAL SERVICE, AND THE DISTRICT
                              OF COLUMBIA

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                                   ON

                               H.R. 1124

     TO EXTEND THE DISTRICT OF COLUMBIA COLLEGE ACCESS ACT OF 1999

                               __________

                             MARCH 22, 2007

                               __________

                           Serial No. 110-20

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform

                     U.S. GOVERNMENT PRINTING OFFICE

37-262 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001
      



















               COMMITTEE ON OVERSISGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
TOM LANTOS, California               TOM DAVIS, Virginia
EDOLPHUS TOWNS, New York             DAN BURTON, Indiana
PAUL E. KANJORSKI, Pennsylvania      CHRISTOPHER SHAYS, Connecticut
CAROLYN B. MALONEY, New York         JOHN M. McHUGH, New York
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             MARK E. SOUDER, Indiana
DANNY K. DAVIS, Illinois             TODD RUSSELL PLATTS, Pennsylvania
JOHN F. TIERNEY, Massachusetts       CHRIS CANNON, Utah
WM. LACY CLAY, Missouri              JOHN J. DUNCAN, Jr., Tennessee
DIANE E. WATSON, California          MICHAEL R. TURNER, Ohio
STEPHEN F. LYNCH, Massachusetts      DARRELL E. ISSA, California
BRIAN HIGGINS, New York              KENNY MARCHANT, Texas
JOHN A. YARMUTH, Kentucky            LYNN A. WESTMORELAND, Georgia
BRUCE L. BRALEY, Iowa                PATRICK T. McHENRY, North Carolina
ELEANOR HOLMES NORTON, District of   VIRGINIA FOXX, North Carolina
    Columbia                         BRIAN P. BILBRAY, California
BETTY McCOLLUM, Minnesota            BILL SALI, Idaho
JIM COOPER, Tennessee                ------ ------
CHRIS VAN HOLLEN, Maryland
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont

                     Phil Schiliro, Chief of Staff
                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
                  David Marin, Minority Staff Director

Subcommittee on Federal Workforce, Postal Service, and the District of 
                                Columbia

                        DANNY K. DAVIS, Illinois
ELEANOR HOLMES NORTON, District of   KENNY MARCHANT, Texas
    Columbia                         JOHN M. McHUGH, New York
JOHN P. SARBANES, Maryland           JOHN L. MICA, Florida
ELIJAH E. CUMMINGS, Maryland         DARRELL E. ISSA, California
DENNIS J. KUCINICH, Ohio, Chairman   ------ ------
WM. LACY CLAY, Missouri
STEPHEN F. LYNCH, Massachusetts
                      Tania Shand, Staff Director
























                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 22, 2007...................................     1
Text of H.R. 1124................................................     3
Statement of:
    Fenty, Adrian M., Mayor, District of Columbia................     6
    Harrison, Deborah, vice president, government affairs, 
      Marriott International, Inc., corporate board member of the 
      District of Columbia College Access Program; and Argelia 
      Rodriguez, president and CEO, District of Columbia College 
      Access Program.............................................    18
        Harrison, Deborah........................................    18
        Rodriguez, Argelia.......................................    27
    O'Leary, Frazier, teacher and coach, Cardozo Senior High 
      School; Emyrtle Bennett, guidance director, Woodrow Wilson 
      Senior High School; Alice M. Boone, management analyst, 
      National Science Foundation, parent of D.C. TAG student, 
      Norfolk State University; and Randa Chappin, executive 
      assistant, the Heart Rhythm Society, D.C. TAG recipient, 
      graduate, American University..............................    38
        Bennett, Emyrtle.........................................    43
        Boone, Alice M...........................................    60
        Chappin, Randa...........................................    63
        O'Leary, Frazier.........................................    38
Letters, statements, etc., submitted for the record by:
    Bennett, Emyrtle, guidance director, Woodrow Wilson Senior 
      High School, prepared statement of.........................    46
    Boone, Alice M., management analyst, National Science 
      Foundation, parent of D.C. TAG student, Norfolk State 
      University, prepared statement of..........................    62
    Chappin, Randa, executive assistant, the Heart Rhythm 
      Society, D.C. TAG recipient, graduate, American University, 
      prepared statement of......................................    65
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............    73
    Fenty, Adrian M., Mayor, District of Columbia, prepared 
      statement of...............................................     9
    Harrison, Deborah, vice president, government affairs, 
      Marriott International, Inc., corporate board member of the 
      District of Columbia College Access Program, prepared 
      statement of...............................................    21
    Lynch, Hon. Stephen F., a Representative in Congress from the 
      State of Massachusetts, prepared statement of..............    56
    Marchant, Hon. Kenny, a Representative in Congress from the 
      State of Texas, prepared statement of......................    36
    O'Leary, Frazier, teacher and coach, Cardozo Senior High 
      School, prepared statement of..............................    41
    Rodriguez, Argelia, president and CEO, District of Columbia 
      College Access Program, prepared statement of..............    30


         THE DISTRICT OF COLUMBIA TUITION ACCESS GRANT PROGRAM

                              ----------                              


                        THURSDAY, MARCH 22, 2007

                  House of Representatives,
Subcommittee on Federal Workforce, Postal Service, 
                      and the District of Columbia,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:08 p.m. in 
room 2247, Rayburn House Office Building, Hon. Danny K. Davis 
(chairman of the subcommittee) presiding.
    Present: Representatives Davis of Illinois, Norton, 
Sarbanes, Kucinich, Lynch, Marchant, and Davis of Virginia (ex 
officio).
    Staff present: Tania Shand, staff director; Caleb 
Gilchrist, professional staff member; Cecelia Morton, clerk; 
and Howie Denis, Victoria Proctor, and Alex Cooper, minority 
professional staff members.
    Mr. Davis of Illinois. The subcommittee will come to order.
    First of all, let me welcome Ranking Member Marchant, other 
members of the subcommittee here, and witnesses, all of those 
in attendance. You will note that some members are not here, 
and you will note especially that Delegate Eleanor Holmes 
Norton is not present at the moment, but, of course, the reason 
she is not present is because she is on the House floor as we 
speak managing the District of Columbia voting rights bill. 
Hopefully, she will be able to join us.
    Of course, we may very well have votes and these kind of 
things that will disrupt our activity. But out of respect for 
the time and schedules of some of our distinguished witnesses, 
we wanted to make sure that we did not delay this hearing and 
that we would try to stick as close to the schedule as 
possible.
    Welcome to the Federal Workforce, Postal Service, and the 
District of Columbia Subcommittee hearing on the District of 
Columbia Tuition Access Grant, D.C. TAG, program.
    Hearing no objection, the Chair, ranking member, and 
subcommittee members will each have 5 minutes to make opening 
statements, and all Members will have 3 days to submit 
statements for the record.
    I will proceed with an opening statement.
    Good afternoon ladies and gentlemen. Welcome to the first 
hearing of the Subcommittee on the Federal Workforce, Postal 
Service, and District of Columbia, which we will hold on 
District-related matters.
    I am pleased to have joined Ranking Member Tom Davis and 
Delegate Eleanor Holmes Norton in sponsoring H.R. 1124, a bill 
to extend the District of Columbia College Access Act of 1999. 
The act, H.R. 1124, reauthorizes funding for the District of 
Columbia tuition assistance grant, the D.C. TAG program, which 
has helped to promote higher education for high school 
graduates in the District of Columbia.
    D.C. TAG provides grants for District high school students 
to attend public colleges and universities nationwide at in-
state tuition rates. Additionally--and this is a very important 
provision of the bill--it provides smaller grants for District 
students to attend private institutions in the D.C. 
metropolitan area and to historically black colleges and 
universities [HBCUs], nationwide.
    The impact of this legislation on the community and in the 
lives of the students who receive the grant cannot be 
overstated. D.C. TAG reaches students in communities where 
there is little hope to being able to attend and afford a 
college education. This is particularly true for many of the 
students that participate in D.C. TAG.
    Of the students that participate in the program, 58 percent 
come from very low-income households. The percentage of males 
participating in the program increased from 8 percent in 2001 
to 41 percent in 2006. That bodes well for black males, who are 
statistically more likely to end up in the criminal justice 
system than matriculating at a college or university.
    Furthermore, students who participate in the program are 
attending educational institutions that are known to nurture 
students of color. Five of the top 10 private schools that 
these students attend are HBCUs: Hampton University, Morehouse 
College, Virginia Union University, St. Augustine's College, 
and Bennett College.
    While students from all races participate in the program 
and attend over 270 institutions in 47 States, including 
nationally recognized public institutions like the University 
of Michigan at Ann Arbor, the University of Illinois, the 
University of California-Berkeley, and the Ohio State 
University, it is a program that serves a community that is 
starving for attention and resources--students of color from 
low-income households and HBCUs.
    Again I commend Representatives Davis and Norton for 
establishing this program, and I look forward to hearing 
firsthand how D.C. TAG has impacted students, recipients, their 
parents, and outlook on life.
    I would now like to ask Representative Sarbanes from 
Maryland if he has any comments.
    [The text of H.R. 1124 follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Sarbanes. Thank you, Mr. Chairman.
    This is actually my first opportunity to participate in a 
hearing of this subcommittee, so I am glad to be here. I am 9 
weeks into this new job.
    Welcome, Mayor Fenty.
    A couple of things. First of all, it is District of 
Columbia Day on the Hill, for the reasons that our chairman 
indicated. I, for one, and I know he and others, many in this 
Congress are looking forward for the District of Columbia to 
have a voting representation in Congress that is so well 
deserved and to allow an incredible advocate like Eleanor 
Holmes Norton to take her advocacy just one level higher. As 
effective as she has been without this right, I can't even 
imagine what is going to happen when she gets it. We all look 
forward to that.
    This program, the D.C. TAG program and the underlying 
legislation that we are seeking to reauthorize, is just 
absolutely critical for young people in the District of 
Columbia who are trying to make their way forward. It reminds 
me of a documentary that I saw a couple years back which was 
focusing on a dropout recovery program in the District of 
Columbia.
    It focused on one family where, in the generation of 
cousins and brothers in that extended family of about 10 or 12 
young men, all of whom sadly had dropped out of high school, 
there was one young man who came back in through the recovery 
program and was moving his life forward and stood ready to take 
advantage of a college opportunity that was there. At the last 
minute, the funding for that fell through, and when it fell 
through he fell through the cracks again and ended up dropping 
out.
    What was so poignant about that documentary was that they 
interviewed one of his cousins who had long since given up hope 
that he would ever have this opportunity himself, and had sort 
of vicariously put all of his hopes and dreams into this cousin 
of his, and his disappointment was palpable. I remember him 
saying--I will never forget--he said it would have been enough 
for me in my lifetime in my life if my cousin had this 
opportunity. It makes you stop and think, when young people's 
aspirations are so compromised that they can't even imagine for 
themselves opportunity and need to project it on to others.
    This program offers tremendous opportunities to young 
people in the District of Columbia. It doesn't occur to most 
folks that the District of Columbia doesn't have its own State 
university system, and therefore can't offer that kind of ``in-
State'' tuition opportunity that others have, and so to have a 
mechanism in place that allows families and students to take 
advantage of the higher education opportunity is critical.
    I am very pleased to be here and be part of the hearing 
today and look forward to the reauthorization of this important 
legislation and look forward to hearing your testimony, Mr. 
Fenty.
    Thank you, Mr. Chairman.
    Mr. Davis of Illinois. Thank you very much.
    If there are other witnesses present, would you come and 
take those front seats up there, so that when we get ready to 
swear people in we can swear everybody in at the same time.
    We will now proceed to hear testimony from the witnesses. 
Of course, should other Members come in, we would provide them 
opportunity to make opening statements if they so desire.
    Our first witness is going to be the Honorable Adrian M. 
Fenty, who won the Democratic nomination for D.C. Mayor on 
September 12, 2006. He received 57 percent of the vote and won 
every precinct in the city. He served two terms as a councilman 
representing ward 4. He waged a vigorous campaign, in which he 
emphasized that government must serve the priorities of its 
people. He unveiled his own proposal, the District of Columbia 
Education Reform Amendment Act of 2007, in an effort to improve 
the D.C. educational system.
    We will go ahead and swear in all the witnesses who are 
present, and so if you would all stand.
    [Witnesses sworn.]
    Mr. Davis of Illinois. The record will show that each 
witness answered in the affirmative. Thank you very much. You 
may be seated.
    Please know that your entire statements will be entered 
into the record. Of course, we use these lights around here. 
they are kind of like stop, go, get ready to stop, and all 
those kind of things. But the green light indicates that you 
have 5 minutes in which to summarize your statement. The yellow 
light means that your time is running down and that you have 1 
minute remaining, and, of course, the red light means that your 
time has expired.
    We will now proceed and hear testimony from the Honorable 
Mayor of the city of Washington, DC, Mayor Fenty.
    Mr. Mayor, please proceed.

   STATEMENT OF ADRIAN M. FENTY, MAYOR, DISTRICT OF COLUMBIA

    Mayor Fenty. Thank you very much. I am glad to be here on 
District of Columbia Day. No two better issues we could be 
discussing here on the Hill than voting rights and education, 
and we thank both of you for your support on voting rights, as 
well.
    Mr. Chairman and members of the Subcommittee on the Federal 
Workforce, Postal Service, and the District of Columbia, good 
afternoon. My name is Adrian M. Fenty, and I am the fifth 
elected Mayor of the District of Columbia. I want to thank you 
for calling this important hearing and for the opportunity to 
testify today.
    I also want to acknowledge and thank our Delegate Eleanor 
Holmes Norton for her tireless dedication to the constituents 
that we both share.
    I am here today to express my support for the congressional 
reauthorization of the District of Columbia Tuition Assistant 
Grant Program, or D.C. TAG. This program deserves the continued 
support of Congress for two reasons: one, because we need it; 
and, two, because it works.
    A little bit about the program. Simply put, D.C. TAG is a 
program that helps high school graduates in the District of 
Columbia go to college. It helps them go to college with the 
same options as high school graduates from the 50 United 
States. In the 50 States, students have the option of multiple 
universities and colleges on multiple campuses. For example, 
neighboring Maryland has 14 4-year public university campuses 
and 16 community colleges. That is about one campus for every 
180,000 residents. In the District of Columbia we have just one 
campus, the University of the District of Columbia, for all 
572,000 residents.
    State colleges and universities are well known for 
providing a quality education at an affordable price. That 
price is especially affordable for students who go to school in 
their home States. The D.C. Tuition Assistance Grants Program 
puts higher education within reach by bridging the gap between 
in-State and out of State tuition at a State university. It 
provides up to $10,000 per academic year, up to a lifetime 
maximum of $50,000, for District residents who have a high 
school diploma and start college by the age of 24.
    Other options are up to a $2,500 per academic year to 
bridge the gap between in-State and out of State tuition at a 
community college, or up to $2,500 per academic year to attend 
a private, historically black college or university anywhere in 
the Nation, or a private university in the District of Columbia 
metropolitan area.
    In 1999, Congress passed D.C. TAG at the urging of our own 
Delegate Eleanor Holmes Norton. To date, including the current 
school year, the program has disbursed $154 million. The D.C. 
TAG Program started in school year 2000-2001. Since that time, 
more than 11,000 young people have taken advantage of our 
Government's offer for help with their tuition bills.
    Looking at the statistics from another angle, in the years 
since the program began, the number of District of Columbia 
public school students going to college has doubled. I want to 
say that one more time. The number of students going to college 
from our public schools has doubled. That is a phenomenal 
achievement for a program that is only in its 7th year.
    D.C. TAG has put our college enrollment in line with the 
national average, but numbers, alone, don't tell the story of 
our program's success. This is one of those occasions where my 
constituents tell their own stories far better than I ever 
could. I will share with you the words of Wezlynn Davis, whose 
daughter Niya graduated from North Carolina Central University 
last year.
    Ms. Davis writes, ``We, the Davis family, have been truly 
blessed by the District of Columbia Tuition Assistance Program. 
I don't know what we would have done without it. I hope that 
the program continues in the future and the process won't 
change much, because I have another youngster who will be 
attending college. He wants to be a culinary chef, and has his 
mind set on it. Thank you for all you and others are doing to 
make sure our black children succeed,'' writes Ms. Davis. ``It 
gives them self worth and a sense of pride knowing that they 
can afford to attend college. I know my daughter is happy. She 
graduated on May 6, 2006, the first one of my children to do 
that. I am ecstatic,'' she concludes.
    Niya Davis is now an administrative assistant at Georgetown 
University Hospital. Hers is just one of the D.C. TAG Program's 
success stories. I ask you to imagine 11,000 success stories, 
with more yet to come.
    In conclusion, the District of Columbia, like other 
governments across the country, has a public policy of 
encouraging as many of its young people as possible to go to 
college. The average male college graduate earns 70 percent 
more than a male high school graduate in the United States, and 
the average female graduate earns almost 80 percent more. We 
need to make these opportunities available to anyone who wants 
them, regardless of income.
    The D.C. Tuition Assistance Program creates more 
opportunities for District of Columbia students to go to 
college. Of those in the program, just like Niya Davis, 38 
percent are the first in their family to do so. That number is 
shrinking as we enroll younger siblings in D.C. TAG, and we are 
hoping 1 day to get it to zero.
    We are changing a way of life for an entire generation of 
young people, and I would like to call upon you, Chairman 
Davis, and your colleagues to reauthorize D.C. TAG once again.
    Thank you for the opportunity to testify today. I look 
forward to answering any questions.
    [The prepared statement of Mayor Fenty follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Mr. Davis of Illinois. Thank you very much, Mr. Mayor. We 
will proceed. We are delighted that you do have time for a few 
questions.
    I have never been a mayor, but I have been a member of a 
city council and I have some awareness of how busy a mayor's 
schedule must be in terms of trying to get around to all the 
pot holes and all of the other things that exist and make sure 
the trees are trimmed.
    Mayor Fenty. I had a lot of hair when I was elected, Mr. 
Chair.
    Mr. Davis of Illinois. So I understand what it is like. But 
let me begin the questioning process.
    It is hard for me to imagine that any students would not 
want to take advantage of the program, but can you share with 
us what the District is doing and plans to do to try and make 
sure that there is maximum participation on the part of 
eligible students?
    Mayor Fenty. Well, I think we have a situation that exists 
where we are spending the lion's share of the dollars 
appropriated, so I think we have shown that if money is put 
there we will market the program and get students to 
participate, but I think the District of Columbia is fully 
prepared if this is reauthorized to make sure that even more 
young people use the program. Our guidance counselors are doing 
a better job every year getting people involved.
    My office, through our State education officer, Debra Gist, 
works in collaboration with those counselors. As we go forward, 
we would love to amend and give you a real detailed plan that 
shows you exactly everything that we are doing, but we are very 
sufficient and very confident that the number of people in the 
system can not only use the dollars, but will grow each year.
    Mr. Davis of Illinois. The Government Accountability Office 
did a study back in 2005, and they reported that 35 percent or 
35.6 percent of the 3,094 students receiving D.C. TAG funds 
failed to adequately demonstrate their eligibility. What steps 
have been taken since the release of this study or this report 
to verify the eligibility of individuals for the program?
    Mayor Fenty. Well, in short, Mr. Chair, our State Education 
Office, and I am joined by our director, our State Education 
Officer Debra Gist, on my left, has made sure that we have made 
the changes that we thought were necessary. Many of those 
problems I think were surrounding ``applicants who had unusual 
circumstances,'' and the eligibility of students with unusual 
circumstances is now documented through the professional 
judgment form, which has been approved and signed by the Higher 
Education Financial Services director.
    We think that we have not only been able to address that, 
but three other major findings in the GAO audit. A lot of the 
problems that were reviewed in the GAO audit study stem from 
the first couple of years of the program, and it is running 100 
percent more smoothly now.
    Mr. Davis of Illinois. And my last question, can you think 
of anything that we, as Members of Congress, might be able to 
do to improve or make even more effective this very worthwhile 
program?
    Mayor Fenty. Well, I think in the short term a 
reauthorization puts us on sound footing. We believe that the 
amount that is being discussed for fiscal year 2008 is an 
appropriate amount. I don't think there is any question, 
though, if we want to keep the program as strong as it is right 
now, in future years there will have to be some bump up. 
Tuition is going up at the colleges.
    More people are enrolling, as you said, as we market this 
to more people, and more students, which we clearly will do. 
What will happen is, if we keep it at that $35 million level, 
less people will be able to use the program. So in the short 
term we think a reauthorization will suffice, and we think we 
have ironed out many of the details, but in the long term we 
will have to slowly increase it to be able to keep the same 
number of people in the program.
    Mr. Davis of Illinois. Thank you very much, Mr. Mayor.
    Now we will turn to Representative Sarbanes, if he has any 
questions.
    Mr. Sarbanes. Thank you, Mr. Chairman.
    Just a couple of quick questions, and they are sort of 
related to what you already said. Do you have a sense of 
whether there is pent-up demand for the program now among high 
school students that, with sufficient funding, could be 
accommodated, or is there sort of this interplay with raising 
awareness first before the pipeline kind of fills to the max?
    Mayor Fenty. I get the sense that there probably is some 
ability to put more people in, in the short term, but there is 
absolutely an ability to put more people in the long term. That 
is why I said to the Chair that reauthorization in the current 
fiscal year at the current dollars that are discussed for 
fiscal year 2008 would be appropriate, but that as we go 
forward, we will be able to get more people involved.
    One of the things that we should look at is, as in a place 
like the University of Virginia, for example, the delta between 
what the in-State tuition is and the $10,000 cap per year is 
still about $6,000, so a student has to pay that $6,000 on top 
of the $10,000 grant. That in the District of Columbia, like in 
any urban place, could make UVA or any university that has a 
similar delta between in-State and out of State tuition 
unaffordable for a young person. So I think that is kind of 
what we may want to address in the future years, as well as I 
think there is no question we can increase the numbers.
    One of the things we did today was announce that Bill and 
Melinda Gates have put $112 million into sending more kids from 
the District of Columbia to college. Well, those young people 
very likely are going to want to go to in-State colleges also. 
So we think that we can increase the numbers into the future.
    Mr. Sarbanes. I thank you for that, because it is careful 
when we talk about the resource question to not see it simply 
in terms of being able to enhance numbers, because if we can't 
cover the differential----
    Mayor Fenty. That is right.
    Mr. Sarbanes [continuing]. And, in fact, it is not going to 
get those numbers coming in.
    Has there been any evidence that the existence of the 
program has--I mean, one can see where graduates would step in 
the program like that. Is there any evidence that it has 
discouraged dropouts in some cases because a student can see as 
they are looking out 2 or 3 years down the road, here is an 
opportunity that I thought maybe I didn't have, and it helps to 
keep them on track and in school? Is there anecdotal or 
statistical evidence of that?
    Mayor Fenty. We probably could provide you a list of those 
types of stories, but suffice it to say that the simple fact 
that we are sending so many first-time students that are the 
first in their families to graduate I think is almost anecdotal 
in itself that we have some young people who otherwise would 
not have gone to college. Since the program has started here in 
Congress, we have doubled the number of kids going to college 
in the District of Columbia. That is a statistic that is 
directly tied to your continued support of the program.
    I think there are other benefits, as well. Although you 
represent Maryland, we are not trying to send a whole lot of 
constituents your way if we don't have to.
    Mr. Sarbanes. I understand.
    Mayor Fenty. And people will flee the District of Columbia 
if they don't have the same type of resources available. This 
puts us on parity, and I think more people have stayed in the 
city because of it, which is healthy for all of us, because we 
want the District of Columbia to succeed for the region.
    Mr. Sarbanes. Thank you.
    Mr. Chairman, I note that, even though the rationale for 
establishing this program is based on peculiar and sort of 
exceptional characteristics of the District of Columbia, 
unwittingly perhaps it can serve in some respects as a model 
for what we should be doing more of with respect to offering 
opportunity for higher education in this country across the 
country in terms of the kinds of assistance that ought to be 
offered there to help people bridge this gap, because the cost 
of higher education is fast becoming a great separator in the 
society at large. So the effectiveness of a program like this, 
the evidence that it is working smoothly, statistics on how it 
is allowing young people to make that journey forward I think 
is very helpful to that larger discussion on higher education 
across the country.
    Thank you.
    Mr. Davis of Illinois. I want to thank you so much, 
Representative Sarbanes, for your comments.
    Mr. Mayor, I want to congratulate you and the city of 
Washington, DC, on the Bill and Linda Gates Foundation grant. I 
think that should go a long way. And I will also share with you 
that I was able to visit earlier today with the publisher of 
the Washington Post who spoke very favorably about this program 
as one of the bright signs of what is taking place in the 
District of Columbia.
    I will end my comments. Malcolm X said that education is 
our passport to the future, for tomorrow belongs to those who 
prepare today. I think that this certainly will go a long way 
toward helping to prepare young people, so we thank you for 
your testimony.
    Mayor Fenty. Thank you.
    Mr. Davis of Illinois. We appreciate your being here.
    Mayor Fenty. Thank you. If you have any followup questions, 
we will definitely get you information. We can't thank both of 
you enough for your support for this program and for the 
District of Columbia, in general. Thank you.
    Mr. Davis of Illinois. Thank you.
    We will now proceed with our additional witnesses. Today we 
have two panels. It may very well make sense. Do we have any 
additional witnesses who came and didn't come up to the front? 
If so, then we would ask you to just come and take a seat up 
here in these seats that are reserved for witnesses.
    We will go then to our second panel. Our second panel: Ms. 
Deborah Marriott Harrison and Argelia Rodriguez. Ms. Harrison 
is the vice president of Government Affairs for Marriott 
International, Inc. She is a member of the D.C. College Access 
Program, called D.C. CAP Board. The D.C. CAP Board consists of 
17 corporations and foundations that raise funds to help enable 
District public high school students to enter and graduate from 
college.
    Welcome, and thank you very much.
    Ms. Rodriguez is the president and CEO of D.C. CAP. She is 
responsible for operating 18 college information centers in 
public schools around the city, administering over $2.5 million 
in scholarship funds each year, and providing college and 
financial counseling to more than 16,000 high school and 
college students and their parents.
    We will begin with Ms. Harrison.

  STATEMENTS OF DEBORAH HARRISON, VICE PRESIDENT, GOVERNMENT 
 AFFAIRS, MARRIOTT INTERNATIONAL, INC., CORPORATE BOARD MEMBER 
OF THE DISTRICT OF COLUMBIA COLLEGE ACCESS PROGRAM; AND ARGELIA 
  RODRIGUEZ, PRESIDENT AND CEO, DISTRICT OF COLUMBIA COLLEGE 
                         ACCESS PROGRAM

                 STATEMENT OF DEBORAH HARRISON

    Ms. Harrison. Good afternoon, Mr. Chairman and subcommittee 
members. It is an honor for me to be here today before your 
subcommittee to express my strong support and that of the 
entire D.C. CAP Board for the reauthorization of the D.C. 
College Access Act.
    In 1999 the chairman and chief executive officers of Mobil 
Corp., Lockheed Martin, Fannie Mae, Marriott, and the 
Washington Post embarked on an ambitious program to 
substantially increase the number of public high school 
students in the District of Columbia who gain admission to 
college and remain there throughout graduation. I would like to 
stress the importance of the graduation part. We have a model 
program of retention. There are others that want to copy this 
program. We have higher than the national average of students 
actually graduating from college, which is very important to 
us.
    These CEOs went out into the business community and raised 
$30 million, which allowed the D.C. College Access Program to 
be able to be launched, but we cannot do this without 
assistance from the Federal Government, without the assistance 
of the D.C. TAG program and the D.C. Access Program.
    Mr. Fenty and you all have described the program very well, 
and so I would like to reiterate the statistic that since D.C. 
CAP has been in existence the last 7 years the number of 
students has risen from 30 percent to 60 percent of those who 
go to college and graduate, but there is still a lot more work 
to be done. Only 9 percent of all entering freshmen into the 
9th grade actually go to college and graduate from college from 
the District of Columbia, so there is a lot of work to be done.
    I would like to digress from the written statement, if I 
may, and tell you a personal story of how I have been involved 
with some real-life students and tell you how this directly 
impacts real-life people.
    I have been involved on more than 10 boards, most of them 
non-profits, and this has been the most rewarding association 
or organization that I have ever been able to be with, because 
I have seen how it makes a difference in people's lives. I am 
also involved with our church youth group, where we have over 
200 high school students that we organize in Montgomery County 
and in the District of Columbia.
    Two years ago one of my girls that I have become close to 
named Dominee wanted to go to college. She went to her D.C. CAP 
advisor, and that is part of the program that makes this so 
special is each high school has a D.C. CAP counseling center in 
the schools. I would like to say that the guidance counseling 
offices in the high schools are empty, but the D.C. CAP offices 
are bustling and are very active and have a lot of energy.
    She approached her counselor. Her counselor helped her 
navigate through the system of applying to many colleges and 
also helped her gain scholarships and financial rewards through 
the system. She got her D.C. CAP scholarship, her TAG 
scholarship, and many others, and was able to garner $22,000 so 
that she could go to school.
    Two years ago she was accepted to the University of 
Pennsylvania, the Altoona campus. I threw my arms around her 
and gave her a hug and said, this is great, you are going to 
college. This is wonderful. She said, I am not going. I said, 
there is no choice. You are going. Why do you not want to go?
    She said that she comes from what I would call a typical 
inner-city family where her mother disappeared when she was 
about 3 years old. Her father has been in prison most of her 
life and is a drug addict. She and her mentally retarded sister 
were raised by her grandmother. She was worried about who would 
take care of her grandmother and her sister. She was worried 
about the extra $2,000 she would have to raise in order to go 
to college. She had no support or encouragement from home to 
go. She was afraid to go to college because she didn't feel she 
had been adequately prepared for the rigors of university life, 
and she was the first in her family to ever go to college.
    I took her and two of her friends up to the university 
campus and we had a tour. They showed her the dorms where she 
would stay. She met her teachers. She met other students. I am 
happy to say that she and her two friends are now finishing 
their sophomore year at Penn State and that she is doing very 
well. She is breaking the cycle in her family of poverty and of 
self-defeat.
    I would like to strongly, strongly encourage and recommend 
a 5-year reauthorization of the D.C. College Access Act and 
full funding of the D.C. Tuition Assistance Grant Program. I 
can assure you that this program does affect real people and 
real lives and gets them out of the cycle of self-defeat and 
poverty.
    I am very proud to be a member of this, and I would be 
happy to take any questions that I can answer.
    [The prepared statement of Ms. Harrison follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Davis of Illinois. Thank you very much, Ms. Harrison. 
We appreciate your comments and certainly you being here with 
us today.
    We will now go to Ms. Rodriguez. You may proceed.

                 STATEMENT OF ARGELIA RODRIGUEZ

    Ms. Rodriguez. Thank you, Mr. Chairman and members of the 
committee. I appreciate this opportunity to speak to you today.
    With the passage of the D.C. College Access Act of 1999 the 
same year our privately funded D.C. College Access Program was 
founded by major Washington area companies and foundations, our 
unique public-private partnership has had extraordinary 
results. In the 7-years since the passage of the D.C. College 
Access Act and the founding of D.C. CAP, our research suggests 
that now twice as many D.C. public high school students go on 
to college, and three times as many graduate from college 
within 5 years.
    These figures, while remarkable in any context, are all the 
more so because the children of the D.C. public schools come in 
overwhelmingly large numbers from low-income, single parent, 
minority households, and are almost always the first in their 
families to attend college.
    D.C. CAP is unique among the Nation's college access 
programs in that every D.C. public high school student is 
eligible for its services, regardless of academic achievement, 
grade point average, family income, ethnicity, special 
education eligibility, delinquency, or criminal history. While 
many other such programs establish criteria that disqualifies 
some students from participation, the principal operating 
philosophy of D.C. CAP is that every high school student has 
the right to an opportunity to improve his or her quality of 
life through a college education.
    Counseling begins with ninth grade students, informing them 
that college is a possibility, helping them understand the 
economic and other benefits of college education. Later in 
their high school careers students are assisted with 
standardized achievement test preparation and administration, 
college selections, admissions applications, and financial aid 
strategies.
    Since the inception of D.C. CAP, its high school counseling 
centers have provided thousands of individual and group 
counseling sessions, as well as financial aid seminars for 
students and their families, administration of SAT and ACT 
exams, and assistance with college educations, enrollment, and 
registration.
    Once accepted in an accredited 2-year or 4-year college or 
university or vocational school, students from the District of 
Columbia are eligible for D.C. CAP's last dollar awards of up 
to $2,000 a year for up to 5 years. Not every student receives 
the last dollar award, but it is based on financial need rather 
than academic performance. After all other available public and 
private financial assistance has been identified and obtained, 
students still needing more assistance can qualify for last 
dollar awards.
    Since its inception through the 2005-2006 academic year, 
D.C. CAP will have awarded more than 5,300 last dollar awards 
totaling approximately $2 million.
    A second unique feature of the D.C. College Access Program 
is its continued support of students for up to 5 years of 
college through their college careers. This support is not 
confined to financial assistance, but it also includes 
mentoring, academic and administrative support, a toll-free hot 
line, on-campus visits by counselors, regular financial aid and 
scholarship correspondence, college tours, and D.C. CAP campus 
college representatives.
    In its 8th year of operation, the D.C. College Access 
Program currently funds full-time counselors serving nearly 
12,000 students in 18 D.C. public high schools.
    D.C. CAP has provided college retention services to over 
2,000 students attending over 600 universities and colleges 
around the country, and is currently providing $2.5 million 
annually in last dollar award scholarships to approximately 
1,200 students attending 230 colleges and universities.
    A total of 8,400 D.C. public school students have been 
admitted to college since the inception of D.C. CAP, and nearly 
1,000 have already graduated.
    With the help of the Bill and Melinda Gates Foundation and 
the D.C. College Success Foundation, we are now prepared to 
extend our services to the charter schools, where more than a 
quarter of D.C. students are now enrolled. We expect the 
universe of college-bound students from the District of 
Columbia to grow even larger in the years ahead.
    Because of this important act, these achievements simply 
would not have been possible without the passage of the 
legislation. Under the unique circumstances of the District of 
Columbia, there is no State university system available for 
D.C. students, no choice of publicly financed colleges and 
universities beyond the University of the District of Columbia. 
These circumstances lead to the anomaly of D.C. students paying 
three times as much tuition as Virginia students were required 
to pay to attend the same Virginia college taking the D.C. 
subway line.
    With the enactment of the D.C. College Access Act of 1999, 
Congress remedied this inequity and created a virtual State 
university system that dramatically expanded the higher 
education choices of students from the District of Columbia. 
From the beginning, the legislation has enjoyed broad 
bipartisan support here in Congress. Both the Clinton and Bush 
administrations have recommended full funding of the D.C. 
Tuition Assistance Grant, despite significant restraints on 
domestic spending. Congress has appropriated the full amount of 
administration requests every year, $35.2 million in fiscal 
year 2006, and has routinely reauthorized the program.
    Because of this legislation, because of you, D.C. students 
now have not only a chance but a choice in higher education, 
and they have made the most of it. Of D.C. college students, 40 
percent are graduating within 5 years--still below the national 
average of 52 percent, but above the 38 percent average for 
African Americans throughout the country. We expect further 
improvement in this D.C. graduation to as much as 44 percent 
within the next year. Without the Federal tuition contribution 
authorized by the D.C. College Access Act, most of these 
students would not only not graduate from college, they would 
have never gone to college in the first place. The financial 
barrier would have simply been too high, the dream of college 
education too far to reach.
    You should be proud of supporting a Federal program that 
actually works, and it works very well. The D.C. College Access 
Act is working exactly as it was intended to work, and it is 
achieving results no one would have dared predict 7 years ago.
    We are grateful for your support and we are hopeful we can 
count on it in the future.
    Thank you very much.
    [The prepared statement of Ms. Rodriguez follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
        Mr. Davis of Illinois. Thank you very much for your 
comments.
    We have been joined by the ranking member of this 
subcommittee, Representative Marchant, and I will defer to him 
at this moment for any comments that he might want to make and 
any questions he might have for the witnesses.
    Mr. Marchant. Thank you, Mr. Chairman.
    For the sake of time, I will submit my opening statement 
for the record and apologize. The floor voting schedule got 
very confused in the last 30 minutes, so I was on the floor 
expecting to be voting. I apologize for my tardiness.
    Mr. Chairman, I will submit this for the record.
    I would just say that it is a great privilege to me to hear 
this testimony from you today, both of you ladies, and that it 
looks to me like this program is working very well. I am very 
open to helping with the reauthorization of it.
    [The prepared statement of Hon. Kenny Marchant follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Harrison. Thank you.
    Ms. Rodriguez. Thank you.
    Mr. Davis of Illinois. Thank you very much.
    I will ask representative Sarbanes if he has any questions.
    Mr. Sarbanes. Thank you, Mr. Chairman.
    A quick question. Before, was the College Access Program 
that was pulled together in 1999--I take it that is when it was 
launched?
    Ms. Rodriguez. Yes.
    Mr. Sarbanes. Was it pulled together in response to the TAG 
opportunity; is that right?
    Ms. Rodriguez. In collaboration.
    Mr. Sarbanes. In collaboration with it.
    Ms. Rodriguez. Collaboration.
    Mr. Sarbanes. OK. So what I was curious about is before TAG 
what was the level of commitment or involvement by similar 
actors with respect to moving young people into higher 
education from the District of Columbia.
    Ms. Rodriguez. Well, I think that before 1999 there were 
many corporations and foundations who were acting in good faith 
but individually. I think in 1999 really the stars aligned. The 
corporations, the foundations, the city, with the enactment of 
the act everything came together and we mobilized around this 
specific issue. And, as you know, there is strength in numbers, 
and I think that is what has made all the difference in the 
world.
    Mr. Sarbanes. I worked in Baltimore for about 8 years in 
education. There are a number of programs, college-bound 
programs that exist there. I know that the business community 
and private sector is very careful about the kind of 
commitments they make in public education, because they want to 
make sure that they are leveraging as much as they can. I think 
that what we see here is the opportunity where the public side 
of this partnership was really what made it appealing to the 
private sector.
    Again, I think that there is a lesson in this that can be 
applied much more widely than with respect to the District of 
Columbia in terms of the public sector stepping in, 
particularly with respect to cost, and getting part of the way, 
a substantial part of the way down the road in terms of making 
an opportunity available and affordable to a young person so 
that then there is an incentive for the private sector to step 
in and do that last dollar grant, or whatever it might be.
    Thank you, Mr. Chairman.
    Mr. Davis of Illinois. I am going to forego any questions. 
I want to thank both of you ladies for your testimony. We are 
going to be having votes later on and we need to try to get as 
many of the witnesses in as we can before votes. I really want 
to thank you for your testimony. We appreciate it. Thank you 
very much.
    Ms. Harrison. Thanks.
    Ms. Rodriguez. Thank you.
    Mr. Davis of Illinois. I am going to ask if panel three 
would come: Frazier O'Leary, Jr.; Dr. Emyrtle Bennett; Alice M. 
Boone; and Randa Chappin.
    Let me just read the introductions.
    Frazier O'Leary, Jr., is a teacher and coach at Cardozo 
High School. He is a consultant for the College Board in 
English Language and Literature, Virtual Teams, and Pre-AP. He 
has encouraged and advised hundreds of students about the value 
and importance of participating in D.C. TAG.
    Dr. Bennett is the head guidance counselor for Wilson High 
School. She is responsible for the academic, social, and 
developmental needs of Wilson students. She facilitates and 
manages the college/work/career process of the student 
population and has a son who recently finished law school and 
was a recipient of D.C. TAG.
    Alice Boone is a management analyst to the associate 
inspector general for investigations at the National Science 
Foundation. She is a single mother with three children. She has 
one child who is a recipient of D.C. TAG.
    And Randa Chappin is a single mother who graduated from the 
American University with a B.A. degree in communications and 
urban development in May 2005. She is the executive assistant 
to the vice president of communications and marketing at the 
Heart Rhythm Society and was a recipient of D.C. TAG.
    It is the custom, of course, that we swear in all 
witnesses. I think we have one witness who was not sworn in 
with the rest, or two, Ms. Boone and Ms. Chappin.
    [Witnesses sworn.]
    Mr. Davis of Illinois. The record will show that each 
witness answered in the affirmative.
    Please know that your entire statements will be entered 
into the record. We would ask that you summarize your testimony 
in 5-minute statements. The green light will come on, and it 
just simply means that you have 5 minutes. When it gets down to 
sort of a yellow or colored-looking light, then that means that 
you have 1 minute and you are expected to begin to kind of wrap 
up your testimony. Of course, the red light means the same 
thing that it does out on the street, and that is stop.
    We thank you all so much for being here. We will begin with 
Mr. O'Leary.

   STATEMENTS OF FRAZIER O'LEARY, TEACHER AND COACH, CARDOZO 
SENIOR HIGH SCHOOL; EMYRTLE BENNETT, GUIDANCE DIRECTOR, WOODROW 
WILSON SENIOR HIGH SCHOOL; ALICE M. BOONE, MANAGEMENT ANALYST, 
   NATIONAL SCIENCE FOUNDATION, PARENT OF D.C. TAG STUDENT, 
    NORFOLK STATE UNIVERSITY; AND RANDA CHAPPIN, EXECUTIVE 
   ASSISTANT, THE HEART RHYTHM SOCIETY, D.C. TAG RECIPIENT, 
                 GRADUATE, AMERICAN UNIVERSITY

                  STATEMENT OF FRAZIER O'LEARY

    Mr. O'Leary. Thank you, Mr. Chairman. Good afternoon, 
ladies and gentlemen.
    My name is Frazier O'Leary, and I have been teaching 
English in the D.C. public schools for 37 years, the last 30 at 
Cardozo High School in northwest Washington.
    Mr. Davis of Illinois. Congratulations.
    Mr. O'Leary. Thank you very much.
    Mr. Davis of Illinois. Thirty-seven years.
    Mr. O'Leary. It has been 37 years of fun.
    One of my primary goals as an educator has been to try to 
prepare my students for post-secondary education. Outside of 
their education, there has been no greater service provided to 
our students during my career than the D.C. TAG program. Since 
the overwhelming majority of our students qualify for free and 
reduced lunch, which is another way of saying that there is no 
money available for college education in their households, the 
D.C. TAG program has allowed our students to widen their 
horizons as far as selection and location of colleges and 
universities. It has also provided them with needed financial 
assistance.
    Those of you who have children who have gone to college or 
have children who will go to college have faced or will face 
the same question that the parents or caregivers of our 
students in D.C. face: how will I pay for my child's college 
education?
    Your answer might sound something like this: I will use the 
equity on my house, or I will take out a loan, or I will dip 
into my savings, or I will borrow against my insurance policy 
to take care of my child. The vast majority of adults who are 
raising our children in D.C. do not have that answer as an 
option. There is no equity in a one-bedroom rental or in 
section 8 housing. You need collateral in order to take out a 
loan. You can't dip into a savings account if there is no 
savings account. Many of the parents or caregivers do not even 
have life insurance. Most of our graduates who go on to college 
are the first members of their family to be able to do so, and 
D.C. TAG is the vehicle for this journey.
    As you planned or will plan for your child's college 
education, it was or will be a matter of weighing options. Put 
yourself in a place where there are no options and then think 
about how the D.C. TAG offers hope to the parents and the 
children.
    Although we spend most of our time teaching, we as 
educators also spend time advising students, encouraging 
students, cajoling students, and even harassing students about 
the value of a college education because there is not one 
student in our schools who doesn't have the same American 
dream. That dream is to have a good-paying job, a home, a car, 
and a family. It is the same American dream you had.
    It is often said that Members of Congress are reelected 
because of the care that they give to their constituents. Our 
students and their caregivers have lives filled with 
unbelievable everyday obstacles that can thwart the achievement 
of this dream. Our students, our constituents need to be taken 
care of, too.
    This December Cardozo's advanced placement program will 
host its sixth annual AP reunion. This event allows graduates 
of our AP program to come back and talk to the current students 
about college life and beyond. It is probably no coincidence 
that the students who came back to our fifth reunion last 
December were almost all recipients of the D.C. TAG awards.
    These students, many of them in college or college 
graduates or graduate students would not have been able to 
reach their goals without the support of this invaluable 
program. You are all officially invited to our next reunion in 
December so that you can hear their stories and share their 
successes.
    I have always believed that public servants, teachers, and 
elected officials have one primary responsibility, and that is 
to advocate for those who need help.
    The D.C. TAG is such an advocacy program. It has been a 
Godsend for thousands of students. It has opened doors for them 
that were previously shut. There is nowhere you can go in this 
city and not bump into someone who has been a recipient of this 
program.
    We often hear words about future leaders and how they are 
formed. I would be willing to guarantee that the future leaders 
of this city will have been allowed to grow because D.C. TAG 
provided the impetus.
    Please allow the current and future students of our high 
schools the same opportunity that these grateful recipients 
have had and reauthorize H.R. 1124 so that future high school 
graduates in our city will benefit from a program that provides 
them with a level playing field and a chance to live the 
American dream.
    Thank you.
    [The prepared statement of Mr. O'Leary follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Davis of Illinois. Thank you very much. If I had been 
young enough, I would have been delighted to be a student in 
one of your classes. We appreciate you.
    Mr. O'Leary. Well, you have an open invitation to please 
come and talk to my students.
    Mr. Davis of Illinois. Thank you very much.
    Dr. Bennett.

                  STATEMENT OF EMYRTLE BENNETT

    Ms. Bennett. Good afternoon Chairman Davis and 
distinguished members of the subcommittee.
    As a certified professional counsel for the D.C. public 
schools, I welcome this opportunity to testify before the 
Subcommittee on Federal Workforce, Postal Service, and the 
District of Columbia regarding H.R. 1124.
    To the mayor in his absence and the Honorable Eleanor 
Norton Holmes, to Ms. Gist and D.C. CAP, and all the other 
constituents who are helping in D.C. public schools, as a 
counselor at the Woodrow Wilson High School, the largest high 
school in the Nation's Capital, I am excited to be here today 
in regards to reauthorization of the District of Columbia 
Tuition Assistance Grant Program.
    As a veteran educator of 30-plus years and a recent law 
graduate, I am committed to the mission of educating and 
lobbying on behalf of the students and parents of the 
Washington, DC, area. I could have turned my head the other way 
and stayed in the comforts of my office at Woodrow Wilson High 
School, but when I thought of the students that come through my 
office every day I had to be here on their behalf to plead to 
you to continue your support to extend the much needed D.C. TAG 
program.
    I shudder to think what would happen to the lives of our 
young people if we take away the opportunity for them to have 
access to a quality and equitable education as afforded to 
students in other States.
    It would be hard for me not to say anything on behalf of 
young people who had no choice of where they or their family 
live, but yet deserve a better chance to higher education. I 
want to speak for our students. They look up to me and expect 
me to lobby on their behalf so that this funding would not be 
taken away, as well as their aspirations for higher education.
    As a result of reauthorization of the D.C. TAG program, you 
would be providing equity and access to college to D.C. public 
school students and investing in our city and the Nation.
    College education benefits not only the individual student, 
but also society, as a whole. D.C. youth deserve as much access 
to excellent higher education as their peers in other States. 
For many of our students, the thought of paying for college 
over the next 4 years can be daunting and can discourage many 
from even applying. However, the D.C. TAG program has made 
college more attainable and provided opportunities to students 
who otherwise would not have the means to pay for post-
secondary education.
    As the Chair of the Guidance Department at Woodrow Wilson 
High School in the District of Columbia, we have been 
instrumental in helping D.C. students graduate from high school 
and achieving their dreams of a college education with the D.C. 
TAG. During my tenure, we have increased our student enrollment 
in universities and colleges in more than 45 States across the 
country and the District of Columbia. As a result of the TAG 
program, there were 301 students in the class of 2006 who 
headed off to college in 171 schools in 41 States, Canada, and 
the Czech Republic; 336 students headed off in 2005. You are 
welcome to review the remainder of our collected data since my 
start at Wilson in 2002.
    We believe the significant increase of college placements 
from 114 in 2002 to 301 in 2006 is a direct impact of the 
tuition assistance grants and of good guidance that, in turn, 
rewards students with educational opportunities available to 
D.C. public high school graduates.
    More access to higher educational opportunities with 
increases in financial aid packages and support from the D.C. 
TAG will benefit our students.
    The D.C. TAG has many successes. At Wilson since my tenure 
I have witnessed my second college graduation of students using 
the funds from D.C. TAG. For many of those students, D.C. TAG 
influenced their post-secondary plans. I am proud to say that I 
had the privilege of working with a former student of mine from 
Coolidge High School who last year was teaching music at 
Wilson. What a living testimony that is. There are many more 
just like him. Many of them are here with me today willing to 
share their stories of D.C. TAG support and to personally 
influence each of you to reauthorize H.R. 1124.
    Many of them have come back to D.C. to give back. Some are 
teachers. Others are working in D.C. and the metropolitan area, 
while others have chosen to return to our local consortium of 
colleges and universities to study medicine, law, and other 
forms of higher education. They, too, have their stories to 
share, but let me share just a couple.
    Shareem returns from the University of Michigan. She will 
graduate in May, and she has been accepted to at least two law 
schools.
    Brian, a first-generation Chinese student, needed D.C. TAG 
to go away to college. In turn, it gave his three siblings and 
parents great joy to see their child go to college and have a 
better way of life, as it also allowed the family more space in 
their two-bedroom apartment.
    Dwayne, a victim of gun violence in his junior year at 
Wilson, would not have been able to break the cycle of violence 
without his D.C. TAG and ability to go away to college in a new 
geographical location, and now he returns older and wiser.
    Last, my son, who is seated in the back, with D.C. 
financial assistance was able to go to college and receive an 
undergraduate degree, a master's degree, and will complete his 
law degree in May. He has come back to D.C. energized, and he 
is committing his time and talent to help students in D.C. by 
running for the D.C. School Board in the May 2007 election.
    Many parents of students have asked me to share their 
concerns about the impact that this D.C. TAG will do if you 
reauthorize it.
    Again, thank you Mr. Chairman for this opportunity to 
testify today before the subcommittee. I am committed to 
working with each of you and the subcommittee to ensure that 
this bill is reauthorized for the District of Columbia public 
school graduates.
    I will be happy to answer any questions.
    [The prepared statement of Ms. Bennett follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Mr. Davis of Illinois. Thank you so much, Dr. Bennett. Of 
course, yours is a living testimony. I heard you indicate that 
many of the young people look up to you, and I guess if I had a 
counselor with a law degree I would look up to her, also. I 
always have good things to say about teachers, but I say that 
counselors are the salt of the Earth. They are pillars of the 
university, partly because both my wife and I worked as school 
counselors and I have to keep saying that. But thank you so 
very much for your testimony. We really appreciate it.
    We have been joined by Representative Lynch and Delegate 
Norton, and I would pause at this moment in the proceedings to 
ask if either one of them or both would have some comments they 
would like to make at this point.
    Mr. Lynch. Thank you, Mr. Chairman.
    Very, very briefly, I just wanted to thank you for your 
willingness to hold this important hearing.
    I think that, much like what is going on over in the 
Capitol today on the subject of the D.C. Voting Rights, this is 
really an issue that speaks directly to the fullness of 
citizenship, and I certainly want to register my support for 
the D.C. TAG program. I also want to speak in favor of the 
increase from $33 million to $35.1 million in fiscal year 2008 
that has been requested.
    I want to thank all the panelists that came here today. 
Unfortunately, we schedule everything at the same time, so I am 
late in attending, but, as Ms. Holmes Norton will attest to, we 
have been very busy today. Having registered my support for 
this measure and for D.C. voting rights, in general, I think I 
will yield my time to the busiest woman in Washington, DC, this 
morning, Ms. Holmes Norton.
    [The prepared statement of Hon. Stephen F. Lynch follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Norton. I thank my colleague for coming, because I know 
what constraints we are up against, and let's think about the 
next bill up is, the Iraq supplemental.
    I want to offer my apologies to the Chair, even as I thank 
him for making this the first hearing of our subcommittee on 
this issue. The reason that we wanted this to be the first 
hearing is I think probably been clear from the testimony that 
has been offered.
    I certainly want to apologize to all of our witnesses. I 
particularly wanted to hear the witnesses who have benefited 
from this bill and regret very much that those that helped them 
benefit and those who have taken advantage of this bill had to 
testify before I came.
    I know that perhaps the chairman told you that there was 
just a little mishap on the way to the vote, and Tom Davis and 
I were called upon to explain to the gathered press, who would 
not understand what in the world had happened, and whether the 
voting rights for the District of Columbia was dead for good. I 
just want to say that for sure it is not. It is a delay. You 
now know what the Congress is all about--it is all about 
strategy. It is seldom about the kind of substance that this 
bill involves. The chairman, himself, is a cosponsor of the 
bill.
    You will not hear the games being played about this bill. 
This bill has been thoroughly bipartisan in both houses, 
haven't had the slightest problem getting it through, don't 
imagine that I will. I think the major reason is that there was 
a clear understanding that among the many ways the District 
residents are disadvantaged is the absence of a State 
university system. It has been an incentive to move out of the 
city, particularly as college costs have risen, and right 
across the line are two States with State university systems 
containing upwards of 30 colleges each to choose from.
    Worse, we know that not having a full State university 
system--you can't expect the city to have that--being grateful 
for our State university, but not having the full range has 
meant apparently that large numbers of residents didn't go to 
college at all. How else do you explain the 60 percent or so 
increase in just 5 years in D.C. residents attending college? A 
full range, but perhaps, above all, the full tuition. The 
$10,000 is the cost of tuition at most State colleges has 
spectacularly escalated college attendance in the District of 
Columbia.
    One thing is sure in this town: if it was a white collar 
town when I was a kid growing up here, it is perhaps the part 
of the United States now that most requires a college 
education. Never did have a blue collar sector. The closest we 
have to it is our tourist sector. To earn a decent living it is 
clear that you are going to need some college, and thus the 
Congress looked at that, and it looked at that when the 
District was, itself, not doing nearly so well as a city as it 
has been during the last 10 years or so. It decided to put its 
money on education.
    The investment has paid dividends to the Federal 
Government, as well as to the city. I heard some of the 
testimony that talked about young people coming back. There is 
every reason to come back when the city has given you these 
opportunities.
    We are going to move this bill forward as soon as we can, 
Mr. Chairman. I hope that chairman of the full committee will 
move it on suspension, because it has had such broad support. 
If not, we will simply put it to a vote and hope that there is 
not a motion to recommit that tries to kill this one.
    Our voting rights bill is not dead. It could be back today. 
The only reason I think it won't be is because we have 6 hours 
of debate on the Iraq supplemental. It will be back very soon. 
Meanwhile, it has been a real pleasure to come to a hearing 
where the bipartisan accolades about the bill have been ongoing 
and have been heard in the city and where Congress has received 
those accolades by continuing to support the bill, this time 
with reauthorization.
    Thank you very much, Mr. Chairman.
    Mr. Davis of Illinois. Thank you very much, Delegate 
Norton.
    I want to thank our witnesses for your indulgence. We will 
now return and hear from Ms. Boone.

                    STATEMENT OF ALICE BOONE

    Ms. Boone. Chairman Davis, Subcommittee on the Federal 
Workforce, Postal Service, and the District of Columbia, I am 
honored and I thank you for the opportunity to testify today.
    From a parent's perspective, authorization of the D.C. TAG 
program will greatly benefit D.C. college-bound students with 
limited resources for obtaining post-secondary education, as it 
has greatly benefited my daughter, who was awarded her first 
grant in 2004, and she is completing her sophomore year this 
May.
    I personally value the D.C. TAG program whereby I have been 
also able to maintain my household's cost of living expenses 
independent from additional State support, and have been able 
to provide her siblings with also a quality education for post-
secondary attainment.
    Moreover, the D.C. TAG program is enabling my daughter to 
complete a second milestone in her educational endeavors, 
which, in turn, will afford her advantages of home ownership 
after college graduation, no Federal student aid debt. At an 
early age she will be able to take advantage of lower mortgage 
interest rates and, based on a low debt ratio percentage her 
rise to become a contributor to this economy will be soon and 
at an early age.
    As a parent's perspective, extension of the D.C. TAG 
program would also benchmark a name for itself and D.C. 
nationally. College-bound students who complete post-secondary 
education but elect to establish residency outside of the 
District of Columbia can acknowledge and contribute their 
success to the College Access Act, which opened doors that 
otherwise would not have been available to them.
    Home ownership is being strongly encouraged as a national 
effort, and college graduates with low Federal student loans 
meeting qualifications for low-interest mortgage loans will 
contribute to any economy that this country values.
    Last, from a D.C. homeowner's perspective, I feel strongly 
that the minority participation with the dynamics of this city 
will greatly increase subsequent to the extension and 
authorization of the D.C. TAG program. Low to moderate-income 
family seeking suitable residence to raise a family can take 
pride and would strive harder toward home ownership with 
attractive amenities such as the Public Education Reform Act 
Amendment of 2007 coupled with the D.C. TAG program.
    Securing children with quality home life and hopes and 
dreams of a college education helps communities grow.
    Mr. Chairman and the subcommittee, I thank you again for 
providing me with an opportunity to express my views on this 
important topic. I would be happy to take any questions.
    [The prepared statement of Ms. Boone follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Davis of Illinois. Thank you very much, Ms. Boone. 
Thank you. We will get to the questions in a minute.
    I would like to go to Ms. Chappin, and then I would like to 
defer to the ranking member of our full committee, who has 
joined us, but we will finish up with Ms. Chappin and then we 
will proceed with questions and comments from our ranking 
member.

                   STATEMENT OF RANDA CHAPPIN

    Ms. Chappin. Good afternoon. My name is Randa Chappin, and 
I am here to express that I simply support the efforts of the 
D.C. TAG program and the D.C. College Access Act, because it 
has enabled me to become the person that I am today.
    As a sophomore in high school, college was not considered 
an institution of higher learning for me; it was an institution 
for debt creation. I did not have the funds to consider even 
going for the first semester, let alone 4 consecutive years. 
Something had to give, and it did. D.C. TAG was presented to me 
as an opportunity to help manage the financial obstacles I was 
facing at the time. The grants were a tremendous blessing to me 
and allowed me to focus on my studies instead of waiting in 
line in the financial aid office for a resolution that would 
not come without interest.
    Today I am proud to shout that I am a graduate of American 
University. I continue to utilize my degree in communications 
and urban development to the fullest while running a tutor 
mentor program at Shaw Junior High School, the most under-
funded public school in the District. I also speak out around 
the metropolitan area to teens about college and other real-
life issues. I mentor three teens personally, one of whom just 
received a full scholarship to a top 10 university, and another 
teen that recently placed first in her class in terms of 
academics.
    Without programs such as D.C. TAG I would not have such a 
strong passion to help others and to make a difference in the 
few lives God has allowed me to touch.
    I am continuing to work and reside in the District, and I 
feel that this will always be my home.
    Allow me to begin and provide you some perspective of the 
mental state I had when approaching the idea of higher 
learning. With the grades that I had ranging from average to 
above average, coupled with the lack of advanced learning 
opportunities, I did not expect to go to college and explore to 
attain greatness. I expected mediocrity, and all the while I 
knew better. I knew what heights I could reach and how the 
burden of how I would get there would always cloud my thought 
process.
    It is truly amazing how expensive a college education is 
becoming. It causes one to return to the never-changing focus 
of the haves and the have-nots. I consider myself to be richly 
blessed and, while I needed that extra push that D.C. TAG 
provided, I am more so concerned and saddened by the thought of 
those who have more dire conditions to deal with.
    Why should the burden and cost of financing college be 
affixed to the unsuspecting student? It is my personal opinion 
that is not fair. No one is keeping the public and private 
institutions of higher education from trading a degree for what 
seems like an endless supply of debt.
    The D.C. TAG program afforded me the opportunity to focus 
on my studies. It may be a mere $1,000 to some students, but 
for the students like myself who are restricted from their 
classes, sent to the hell that is the registrar's office, the 
financial aid office, and the student accounts office, for 
those students who don't have the parental cushion of their 
counterparts, for those young parents such as myself, and those 
other young adults, D.C. TAG offered a financial stress-free 
resolution like no other. D.C. TAG's friendly and cooperative 
personnel furthered my newly optimistic outlook on the 
plausibility of a higher education. The facts, as I saw them, 
were that college costs equate in monetary range from a low-end 
three-bedroom house to a new condominium downtown.
    Also, most of today's students and their parents are first 
pointed out to high-interest loans as a financial aid 
resolution, and if you are a young parent, as I am, you have no 
chance of going and graduating from college. This is the state 
of mind of young people in this area that I know firsthand 
about, that I have cried with them, and I have gone through the 
obstacles that they have faced, speaking at the different 
seminars and what not.
    I won't take any more of your time to further explain what 
is already seen; however, please be mindful when you are making 
your decision that the lives that you affect today are the 
lives that will be running your corporations, your government, 
and other entities tomorrow.
    I took my grant and I finished college at American 
University and my life is spent working on somebody else's 
behalf in order to move them further along in their life. This 
is what I do with my time. You have an opportunity to continue 
the change that has already been set forth in 1999, and I hope 
you will take it.
    Thank you.
    [The prepared statement of Ms. Chappin follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Davis of Illinois. Thank you very much. I want to thank 
all of our witnesses.
    As I indicated, we have now been joined by a primary 
sponsor of this legislation and the ranking member of our full 
committee, Representative Tom Davis. I would defer to him for 
any comments that he might have at this time.
    Mr. Davis of Virginia. Mr. Chairman, thank you very much. 
Let me thank our witnesses for being here, as well.
    In a little-noticed rule change, one of my last acts as 
chairman of the full committee, I added a provision that any 
chairman of a subcommittee bearing the title District of 
Columbia would have to be led by a member named Davis. While 
this gives both parties the widest possible discretion, I am 
pleased that you, Chairman Davis, have been so named. 
[Laughter.]
    Mr. Davis of Illinois. Thank you.
    Mr. Davis of Virginia. Thus we have the nomenclature 
continuity here in our Nation's Capital.
    We have traveled a long road since the Access Act, from 
March 1, 1999, when it was introduced until the present day. 
The road took us through the predecessor subcommittee that I 
chaired at the time to the full Government Reform Committee, to 
the House and Senate floor, and then the White House where 
President Clinton signed the measure November 12, 1999.
    In all of its legislative approvals, the College Access 
Act, now known as the Tuition Assistance Grant Program, was 
passed unanimously by voice vote. President Clinton had 
included sufficient money in his budget submission that year 
and a statement of administration policy endorsed the approach 
we had taken to authorize the use of those funds.
    I am very proud of our hard bipartisan effort in enacting 
this measure and its reauthorization 2 years ago.
    My thanks to Ms. Norton, who was the ranking member in 
1999, who has worked tirelessly to enhance the legislation ever 
since.
    I also want to thank my then-counterpart in the Senate, 
George Voinovich, for his continuing support, and Senators 
Warner and Durbin for working with us to improve this 
legislation.
    The 5-year reauthorization legislation before us today will 
enable District residents to continue to attend colleges and 
universities at in-State rates. President Bush, in his budget 
submission for fiscal year 2008, has included sufficient funds 
to make this happen. Then-Mayor Tony Williams and now D.C. 
Mayor Adrian Fenty have both strongly supported this law as 
being very important for the District's high school graduates.
    As documented to this subcommittee, the graduation rate for 
public school students in the city has doubled since this law 
went into effect, and we are now incentivizing people to stay 
in school and to go to school afterwards. It was just a 
generation ago where some D.C. high schools sent more kids to 
Lorton Reformatory than to college. We changed that. We changed 
it a kid at a time, and this act has played a very important 
role.
    This is a classic leveling of the playing field. No city or 
county in the country is required to supplement its in-State 
rate with local funds, and neither should the taxpayer in the 
Nation's Capital be saddled with the burden. Neither should the 
city be penalized for its own success in administering this 
program.
    Back on March 4, 1999, when I introduced this bill, I went 
to nearby Eastern High School with Ms. Norton. I was deeply 
moved by the reaction of the students. I will never forget how 
many kids took our hands, looked us in our eyes, and thanked us 
for introducing the original bill. I am proud of what we have 
been able to do in the capital city since 1995 when the city 
was literally bankrupt. Economic development, public safety, 
the real estate market, and so many other aspects of city life 
have changed for the better, but nothing has given me more 
satisfaction than working to improve educational opportunities. 
Fighting for equal education opportunity is one of the reasons 
I think most of us entered public life.
    You need a healthy city to have a healthy region. 
Reauthorizing this law which has expanded higher educational 
choices is an enormous step forward, and it is a strong part of 
our vision for the future.
    Again, I just want to thank our witnesses for coming and 
sharing with us your stories today.
    Mr. Davis of Illinois. Thank you very much, Representative 
Davis.
    Now I would like to go to Representative Sarbanes to see if 
he has any questions of this panel.
    Mr. Sarbanes. I don't have a question. I just did want to 
react to Mr. O'Leary's initial testimony, though, in terms of 
presenting. We talk obviously in terms of what it means to the 
young people to have this opportunity, advantage, but it is as 
equally important for the families, because it represents 
whether the promise of the American dream is real or 
illusionary to them.
    I had the opportunity about 6 months ago to speak with a 
woman at one of the MARC train stations in Maryland who was on 
her way to her job in the District of Columbia. She wanted to 
talk to me about the cost of higher education, and she looked 
me in the eye at one point and she said, without any sort of 
bitterness or recrimination, she said, I did everything they 
told me I was supposed to do. She said, my husband and I worked 
three jobs between us, we saved our money, and we told our 
children that if you work hard and you study you can make it. 
Now we can't afford to send our three children to college.
    In that moment I think she was expressing the frustration 
of an increasing number of families in this country, which is 
we thought that if you played by the rules and you worked hard 
you could make it here. Then they find out that there is 
something, they just can't get there. They can't get across 
because usually it is the financial aspect of it.
    So this program is obviously critical in helping to bridge 
that, and the testimony that all of you provided I think simply 
reinforced that notion in terms of opportunity.
    I said it already twice, Mr. Chairman, but I will say it 
again: I think that this program in many ways can model the way 
we approach and enhance opportunities for higher education 
across the whole country. The concepts that are in place here 
don't have to be restricted to the District of Columbia. 
Although obviously the District of Columbia has a special claim 
on this kind of a program because of its unusual circumstances, 
the concepts here are more widely applicable.
    Thank you for your testimony.
    Thank you, Mr. Chairman.
    Mr. Davis of Illinois. Thank you very much, Representative 
Sarbanes.
    I will go over to Representative Davis and see if he has 
any questions.
    Mr. Davis of Virginia. Ms. Chappin, let me start with you. 
You are a graduate of the program. You understand it. If you 
look at your classmates taking advantage of this, without this 
do you think a lot of them would have been discouraged from 
even applying to college and going forward because the costs 
were just out of reach?
    Ms. Chappin. Absolutely. There is no question whatsoever. 
The amount of scholarships that are out in even our local 
colleges right now are diminishing, and a lot of them are 
academic, and a lot of us just have average grades, so the 
grants that didn't hold you to 4.0 all 4 years or the grants 
where you didn't have to be almost destitute in order to be 
able to go to college, these programs, they give you that 
financial push that you need, and they also give you the 
counseling, that reciprocity that you need between being a high 
school student and an adult, just saying that these are your 
options and lay them out on the table. So absolutely, all of 
them would certainly be able to go forth and even view college 
as an option. Five years ago I can't say the same.
    Mr. Davis of Virginia. I think out in our area it has 
opened it up to some of our historically black colleges in 
Virginia--Virginia State, Virginia Union--others, as well as 
our community colleges out there in northern Virginia where you 
just get a more complete college choice instead of what you 
were offered before at this stage. The facts speak for 
themselves, the number of kids that are seeing their way 
through to graduate from high school and then the numbers that 
are going on to higher education. Ultimately, if you want to 
change the city you have to give the young people the 
opportunity. Hopefully this is working and this continued 
reauthorization will continue.
    I appreciate everybody sharing their perspectives here. 
This should be one D.C. bill that goes through unscathed as we 
move through the process, but even in the past we have had 
problems with people putting holds on them in the other body 
and the like, and so it is important that we build the record 
here.
    Thank you very much.
    Mr. Davis of Illinois. Thank you, Representative Davis.
    I now go to Ms. Norton and see if she's got any questions.
    Ms. Norton. As it turned out I did get to hear two of you 
testify. I apologize that I was not here for the first 
testimony.
    Of course, it is hard for me to think of a bill that has 
been more important to the District of Columbia than this bill. 
All you have to do is go talk to your constituents and say D.C. 
TAG and everybody rises and applauds before you get ``TAG'' out 
of your mouth. I compare it only to the home buyer's tax 
credit. One kept people in the city, kept people from moving 
out, and the other says if you are going to live here you had 
better be educated, and I will be darned if D.C. residents 
didn't take the cue and come forward in huge numbers.
    I would just like to ask, Ms. Chappin, I don't know when I 
have been more impressed than I have just by your testimony, 
the way you presented it and the way you have answered 
questions. I mean, you are a walking example that I think says 
it all, and somehow we ought to record you and let you speak 
for the bill.
    Ms. Chappin. Thank you.
    Ms. Norton. I would like to know a little bit more about 
yourself, because I read your testimony, heard your testimony. 
The candor of your testimony, the sincerity of your testimony 
is striking. You didn't say where you went to high school.
    Ms. Chappin. I am sorry. I went to Woodrow Wilson Senior 
High School.
    Ms. Norton. You did go to Wilson.
    Ms. Chappin. Yes. I stayed all in the Northwest, that 
corridor. I went to Horace Mann Elementary School, which is off 
of New Mexico Avenue in Northwest. I went to Alice Deal Junior 
High School, which is off of--I don't remember the name of the 
street. And then I ended up at Woodrow Wilson, graduated a year 
early. I was able to go to Howard University for a year, and 
then I transferred to American University to finish my studies 
because Howard didn't have the focus that I was looking for, 
because I know communications is a strong point of mine and I 
love to talk, but the urban development aspect----
    Ms. Norton. I will say communications is a strong point of 
yours.
    Ms. Chappin. The urban development aspect. And one thing I 
just wanted to share with you, I find a lot of students, even 
in the D.C. area if you open it up to Maryland and Virginia, 
they feel that we are told that, get a good education, get a 
good education, education is the key, that is what you have to 
do, but then we are not given the resources that we need to get 
a good education.
    Even when I was in high school at Woodrow Wilson and I was 
placed in remedial classes because the AP classes I tested into 
were full, and paperwork, they didn't realize that until 
November into the school year, so I was placed into a remedial 
class. By the time I got to college I had to catch up 
tremendously, and I thought I was doing well. I got an A in 
remedial math. Well, of course, who can't get an A in remedial 
math? I am sorry.
    All I am saying is that we are told so much, and it is 
drilled into us that education is where we have to go with it, 
and it is so much talk and it is not enough action. We find 
that we are not supported in aspects of just getting a good 
education. We find that we are not supported in remaining in 
D.C. Our school system needs improvement, and it is kind of 
like how do you start when you are already two steps behind.
    So programs such as this kind of made up for the difference 
and kind of put you at the same ground level, and it was your 
choice to either move forward or stay where you were.
    I am happy that a lot of our participants in the D.C. TAG 
program and the D.C. CAP program, D.C. LEAP recipients, all of 
those participants are those that have the passion to move 
forward and not stay stagnant.
    Ms. Norton. You went to two private colleges in the 
District, both of them private, meaning you got a grant that 
was not as high as a public grant. This is the way many States 
do it. If you go to a private college you get considerably less 
than going to the State university. So that meant you had to 
put your college access grant together with other funds. How 
did you find other funds? What kind of funds are available for 
someone like you who wants to go to a private college and does 
not want to take advantage of the $10,000 grant?
    Ms. Chappin. Well, in order to make it to the private 
college I held down three jobs the whole duration of my college 
career. I also obtained other scholarships from other private 
organizations and I honestly just wrote letters to almost 
everybody that I could think of saying hey, I would like to 
finish school, can you help me out. I was able to obtain 
scholarships from all of those other organizations. And there 
is also the Pell Grant. That is also very appreciated.
    Ms. Norton. The cobbling together of funds that virtually 
every student does today, one way or the other--some may 
qualify for some and not others--makes college education 
possible for everybody. Of course, if you live in a city that 
doesn't have a State university system it becomes more 
difficult, which is the reason for TAG.
    You indicated that you were employed at the Heart Rhythm 
Society.
    Ms. Chappin. Yes.
    Ms. Norton. Where is that located?
    Ms. Chappin. That is located at 14th and K in Washington, 
DC, mere blocks from the White House, I believe.
    Ms. Norton. What do you do for the Heart Rhythm Society?
    Ms. Chappin. I am the executive assistant to the vice 
president of communications and marketing. The organization 
basically holds a lot of scientific sessions, and they are a 
group of professionals geared toward increasing information, 
advocacy, and just overall aspects of those professionals who 
work in cardiac rhythm issues, so whether that is sudden 
cardiac arrest, ICDs, all of those great things.
    Ms. Norton. Did you have any difficulty finding employment 
once you graduated? How long were you unemployed?
    Ms. Chappin. I was unemployed----
    Ms. Norton. Well, when did you graduate?
    Ms. Chappin. I graduated in May 2005, and I was unemployed 
for probably, I want to say about 14 hours after I received my 
degree.
    Ms. Norton. How come? How were you able to get a job so 
quickly?
    Ms. Chappin. Pounding pavement.
    Ms. Norton. It doesn't look like you pounded much pavement.
    Ms. Chappin. Well, I was already looking. The only reason I 
graduated in 2005 and 2004 was because of a missed class, so I 
was already sending out resumes and what-not with the 
understanding that I was going to graduate in the winter of 
2004. Came to light, had to take that last class, and I had 
offers available to me, and I graduated Mother's Day on 2005 
and I began work that Monday.
    Ms. Norton. So, notwithstanding the considerably higher 
unemployment rate among District residents, you did not have 
any difficulty finding employment once you had your college 
degree?
    Ms. Chappin. None whatsoever.
    Ms. Norton. You went through in 4 years without stopping?
    Ms. Chappin. Not at all.
    Ms. Norton. Well, Mr. Chairman, again, I appreciate that 
you have reached out to find a student who could speak for 
herself about the value of TAG, because I think she has said it 
all.
    Thank you. I yield.
    Mr. Davis of Illinois. Well, thank you very much, Ms. 
Norton.
    We want to thank all of our witnesses, those who are still 
here and those who testified earlier. I think that you make a 
compelling cases, as well as demonstrate a tremendous amount of 
interest in higher education. I know that all members of this 
subcommittee appreciate your coming and spending time and 
sharing not only your experiences but also your thoughts with 
us.
    All of this is very timely because, as you can see, we are 
about to have a vote, and so it is an excellent time.
    I also want to thank our staff for pulling together the 
hearing.
    Again, we thank you all for coming.
    This hearing is adjourned.
    [Whereupon, at 3:45 p.m., the subcommittee was adjourned.]
    [The prepared statement of Hon. Elijah E. Cummings 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
